         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL


                                        Catalyst for Improving the Environment


Audit Report




       EPA Region 3 Reduced
       Unliquidated Obligations Under
       Water Program Assistance
       Agreements

       Report No. 11-P-0170

       March 15, 2011
Report Contributors:                              Paul Curtis
                                                  Meg Hiatt
                                                  Alfred Falciani
                                                  Bob Evans
                                                  Carol Kwok
                                                  Denise Patten
                                                  Kevin Ross
                                                  Phil Weihrouch




Abbreviations

DC WASA      District of Columbia Water and Sewer Authority
EPA          U.S. Environmental Protection Agency
OIG          Office of Inspector General
ORBIT        Office of the Chief Financial Officer’s Reporting and Business Intelligence Tool
                        U.S. Environmental Protection Agency 	                                              11-P-0170
                                                                                                        March 15, 2011
                        Office of Inspector General


                        At a Glance
                                                                            Catalyst for Improving the Environment

Why We Did This Review                 EPA Region 3 Reduced Unliquidated Obligations
The U.S. Environmental
                                       Under Water Program Assistance Agreements
Protection Agency (EPA)
oversees water program                 What We Found What We Found
assistance agreements as part of
its efforts to protect human health    We identified $6,130,166 of unneeded funds for three assistance agreements
and the environment. Our               awarded by EPA Region 3 to the District of Columbia, and the region
objectives were to determine           deobligated those funds during the course of the audit. An EPA official said
whether EPA has adequate               the unneeded funds could not be deobligated sooner because of a
controls in place to identify and      construction dispute, nonperformance issues, technical issues, or equipment
deobligate unneeded funds for          problems. Further, an EPA project officer and a District of Columbia Water
water program assistance               and Sewer Authority official stated that they had not deobligated the
agreements, and to determine the       unneeded funds because they directed most of their resources to projects
amount of unliquidated                 related to the American Recovery and Reinvestment Act of 2009. As the
obligations for selected states that   funds on these three grants were not needed, they could have been
could potentially be deobligated.      deobligated earlier and awarded to the District of Columbia for other
                                       environmental projects.
Background
                                       Because Region 3 deobligated funds remaining on the assistance agreements
                                       during the course of our audit, we have no recommendations.
To achieve clean and safe water
goals, EPA provides funds
through assistance agreements to       During our audit, we determined that Region 3’s escalation process for
states, local governments, and         addressing project delays should be considered a best practice. While EPA
                                       has policies for baseline monitoring of assistance agreements, Region 3
tribes under the water program.
                                       accelerates the award or dispute resolution process, and directly contacts the
Timely review and deobligation
                                       recipient expressing concerns about lack of progress and requests they
of unneeded funds allows these
funds to be used on other              perform specific tasks to move the project. For example, Region 3 sent a
environmental projects.                letter informing the recipient of its concern regarding the lack of work
                                       progress under the assistance agreement and required the recipient to take
                                       specific actions. The letter also informed the recipient that EPA would
                                       terminate the assistance agreement if the recipient did not take the required
                                       actions. As a result, the recipient took actions to resolve the issues and the
For further information,
contact our Office of
                                       project proceeded to construction.
Congressional, Public Affairs and
Management at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2011/
20110315-11-P-0170.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                           THE INSPECTOR GENERAL




                                          March 15, 2011

MEMORANDUM

SUBJECT:	 EPA Region 3 Reduced Unliquidated Obligations Under
          Water Program Assistance Agreements
          Report No. 11-P-0170


FROM:          Arthur A. Elkins, Jr.
               Inspector General

TO:	           Shawn Garvin
               Regional Administrator, Region 3


This is a report on unliquidated obligations under water program assistance agreements
conducted by the Office of Inspector General (OIG) of the U.S. Environmental Protection
Agency (EPA). This report represents the opinion of the OIG and does not necessarily represent
the final EPA position. Final determination on matters in this report will be made by EPA
managers in accordance with established audit resolution procedures.

The estimated direct labor and travel costs for this report are $88,708.

Action Required

We made no recommendations; therefore, no action is required. We will close out the report in
our tracking system upon issuance. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Paul Curtis
at (202) 566-2523 or curtis.paul@epa.gov, or Meg Hiatt at (513) 487-2366 or
hiatt.margaret@epa.gov.
EPA Region 3 Reduced Unliquidated Obligations                                                                                11-P-0170
Under Water Program Assistance Agreements


                                      Table of Contents 

   Purpose........................................................................................................................    1


   Background .................................................................................................................       1


   Noteworthy Achievements ........................................................................................                   2


   Scope and Methodology.............................................................................................                 2


   Results of Review .......................................................................................................          3


   Agency Response and OIG Comment ......................................................................                             4


   Status of Recommendation and Potential Monetary Benefits................................                                           5




Appendices
   A Details on Scope and Methodology ....................................................................                            6


   B Agency Response to Draft Report.......................................................................                           9


   C Distribution ............................................................................................................       12 

Purpose

            The purpose of this audit was to determine whether the U.S. Environmental
            Protection Agency (EPA) has adequately monitored obligations on water program
            assistance agreements. Our objectives were to determine whether EPA has
            adequate controls in place to identify and deobligate unneeded funds, and to
            determine the amount of unliquidated obligations for selected states that could
            potentially be deobligated.

Background
            EPA established a goal to achieve clean and safe water. The goal is to ensure safe
            drinking water; restore and maintain oceans, watersheds, and their aquatic
            ecosystems to protect human health; support economic and recreational activities;
            and provide healthy habitat for fish, plants, and wildlife. EPA achieves this goal
            by providing funds through assistance agreements to states, local governments,
            and tribes under the water program. Several EPA offices are involved in the
            administration and financial management of the assistance agreements. Project
            officers within EPA program offices are responsible for:

                 Completing programmatic baseline monitoring for all active awards and
                  assigned programmatic advanced monitoring activities
                Completing technical closeout of awards and certifying that all
                  programmatic terms and conditions are met
               	 Assisting and responding to the Grants Management Office, grant
                  specialists, and the finance center in requests for assistance in monitoring,
                  closeout, and overall grants management
               	 Forwarding any administrative or financial reports and requests to the
                  appropriate office and maintaining appropriate file documentation

            The following are also involved in managing assistance agreements:

               	 Grants Management Offices in headquarters and regional units are
                  principally responsible for all business management aspects associated
                  with negotiating applications and awarding and administering funded
                  projects.
               	 EPA grant specialists are responsible for completing administrative
                  baseline monitoring for all active awards. They assist and respond to the
                  project officers, program office, and finance center in requests for
                  assistance in monitoring, closing out, and overseeing overall grants
                  management.
                The Las Vegas Finance Center is responsible for grant payments and
                  financial closeout of these agreements.
                The Office of Grants and Debarment serves as the national program
                  manager for administrative grants management and is responsible for



11-P-0170                                                                                     1
                  assistance regulations, policy, and guidance; and for assistance-related
                  training.
               	 The Grants and Interagency Agreements Management Division within the
                  Office of Grants and Debarment is the Grants Management Office
                  responsible for administrative management.

            EPA’s Policy on Compliance, Review, and Monitoring of Grants and Cooperative
            Agreements establishes Agency standards for the oversight, monitoring, and
            closeout of assistance agreements. The policy states that EPA officials are
            responsible for monitoring programmatic and administrative components of the
            agreements, including determining whether expended and remaining funds are
            reasonable.

Noteworthy Achievements
            As we conducted our work, we determined that Region 3’s escalation process for
            addressing project delays should be considered a noteworthy achievement. While
            EPA has policies for baseline monitoring of assistance agreements, Region 3
            accelerates the award or dispute resolution process, and directly contacts the
            recipient expressing concerns about lack of progress and requests they perform
            specific tasks to move the project. For example, Region 3 sent a letter informing
            the recipient of its concern regarding the lack of work progress under the
            assistance agreement and required the recipient to take specific actions. The letter
            also informed the recipient that EPA would terminate the assistance agreement if
            the recipient did not take the required actions. As a result, the recipient took
            actions to resolve the issues and the project proceeded to construction. The
            escalation process helped resolve the issues sooner so that the project could
            proceed to achieve environmental outputs described in workplans.

Scope and Methodology
            We conducted our audit from January 21, 2010, to February 10, 2011, in
            accordance with generally accepted government auditing. Those standards require
            that we plan and perform the audit to obtain sufficient, appropriate evidence to
            provide a reasonable basis of our findings and conclusions based on our audit
            objectives. We believe that the evidence obtained provides a reasonable basis for
            our conclusions based on our audit objectives.

            We selected three programs for review: (1) Increase System Meeting Health
            Based Requirements, (2) Reduce Keypoint Source Loadings by 28%, and
            (3) Wastewater Treatment Construction. For these three programs, the population
            of the unliquidated obligations totaled $257 million. For sample testing, we
            selected the District of Columbia and the states of Montana, New Jersey, New
            York, and West Virginia, based upon the largest unliquidated amounts prior to
            fiscal year 2005. The sample included assistance agreements with $74 million of
            unliquidated obligations as of December 7, 2009. We interviewed recipient


11-P-0170                                                                                      2
            officials and EPA program officials from the water programs in Regions 2, 3, and
            8. We reviewed project files obtained from EPA program officials.

            Appendix A contains further details on our scope and methodology.

Results of Review
            We identified $6,130,166 of unneeded funds that should have been deobligated
            for three assistance agreements awarded by EPA Region 3 to the District of
            Columbia. Region 3 has since deobligated the unneeded funds. Had Region 3
            deobligated these funds timely, such funds would have been available sooner for
            the District of Columbia Water and Sewer Authority (DC WASA) for other
            environmental projects.

            We did not identify funds to be deobligated in Montana, New Jersey, New York,
            or West Virginia.

            EPA Order 5700.6A2, Policy on Compliance, Review and Monitoring, establishes
            Agency standards for the oversight, monitoring, and closeout of EPA assistance
            agreements, and implements requirements for the review of compliance with
            applicable grants management policy and regulations. The order states, “In
            programmatic baseline monitoring, areas to be reviewed may include: receipt of
            progress reports, identifying areas of concern cited in the progress reports,
            whether expended and remaining funds are reasonable….”

            Based on our review of water program assistance agreements, we determined that
            Region 3 had up to $6,130,166 of unliquidated obligations that should have been
            deobligated. That amount consisted of three assistance agreements awarded to the
            DC WASA. Table 1 provides a summary of the three sampled agreements with
            the unneeded funds available for deobligation.

            Table 1: Sampled water program assistance agreements for DC WASA with
            unneeded funds for deobligation
                                                                   Unliquidated
                 Assistance                 Obligation          obligation amount        Amounts identified
             agreement number                amounta             as of 12/07/2009b        for deobligation
             FS99381601                       $18,352,503                 $1,462,103                  $341,514
             0011002730                         22,868,812                 5,976,412                 5,523,348
             C11002734                           8,328,608                   784,508                   265,304
                 Total                        $49,549,923                 $8,223,023               $6,130,166
            Source: OIG analysis.

                    a
                        Each total obligation amount represents the total funds obligated on the agreement.
                    b
                        Unliquidated obligation amounts represent the unused funds on the agreement.




11-P-0170                                                                                                     3
            An EPA program official stated that the unneeded funds on these assistance
            agreements could not be deobligated sooner because of a construction dispute,
            nonperformance issues, technical issues, or equipment problems found following
            the completion of the projects. Further, an EPA project officer and a DC WASA
            official stated that they had not deobligated the unneeded funds because they
            directed most of their resources to projects related to the American Recovery and
            Reinvestment Act of 2009. As the funds on these three grants were not needed,
            they could have been deobligated earlier and awarded to DC WASA for other
            environmental projects.

            Region 3 deobligated $606,818 on two assistance agreements (FS99381601 and
            C11002734) in March and April 2010, and the agreements were financially
            closed. The unneeded funds of $5,523,348 on agreement 11002730 were
            deobligated, and the agreement was financially closed, in July 2010.

Agency Response and OIG Comment
            Because Region 3 deobligated the amounts remaining on the assistance
            agreements we identified during our review, we have no recommendations.

            Region 3 agreed with our findings and the amounts to be deobligated, and took
            timely action. Region 3 said it takes seriously its fiduciary responsibility to ensure
            timely and prudent use of funds made available by Congress for award as grants.
            Region 3 also stated that deobligated funds are returned to DC WASA for
            additional projects. No further action is required. Region 3’s full response is in
            appendix B.




11-P-0170                                                                                        4
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                               BENEFITS (in $000s)

                                                                                                    Planned
    Rec.    Page                                                                                   Completion   Claimed    Agreed To
    No.      No.                         Subject                       Status1   Action Official      Date      Amount      Amount

                                  No recommendations


                    NOTE: Region 3 deobligated $6.1 million during                                               $6,130
                    our audit.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




11-P-0170                                                                                                                              5
                                                                                   Appendix A


                 Details on Scope and Methodology
We reviewed laws and regulations pertaining to assistance agreements, such as the Safe Drinking
Water Act and Title 40 Code of Federal Regulations Part 31, Uniform Administrative
Requirements for Grants and Cooperative Agreements to State and Local Governments. We
reviewed EPA policies and guidance, such as EPA Order 5700.6A2, Policy on Compliance
Review and Monitoring, and Policy Announcement 96-04, Review of Unliquidated Obligations.
We also reviewed assistance agreement guidance posted on the “Grants” intranet website, such
as the Project Officer Manual.

We obtained a universe of assistance agreements from the Office of the Chief Financial Officer’s
Reporting and Business Intelligence Tool (ORBIT) using transaction codes CG (construction
assistance agreements) and GO (all other assistance agreements). The universe consisted of
$12,300,716,837 of unliquidated obligations and $18,712,711,433 of total obligations as of
December 7, 2009. From the universe, we excluded programs related to Alaska native villages,
Brownfields, U.S.–Mexico border protection, the American Recovery and Reinvestment Act of
2009, and State Revolving Funds/State and Tribal Assistance Grants, because of ongoing or
completed OIG audits in these areas. The remaining population consisted of $1,742,972,628 of
unliquidated obligations and $4,079,149,390 of total obligations.

From the population, we selected states and programs with the largest unliquidated amounts
outstanding for obligations made prior to fiscal year 2005 for review. As discussed earlier, we
selected three programs for review: (1) Increase System Meeting Health Based Requirements,
(2) Reduce Keypoint Source Loadings by 28%, and (3) Wastewater Treatment Construction.
Details on our sample are in table A-1.




11-P-0170                                                                                         6
Table A-1: Sampled water program assistance agreements
                                                              Unliquidated           Total
                                                Number of    obligations as      obligations
    Program results code        Recipient      agreements    of 12/07/2009     as of 12/07/2009
 Increase Systems Meeting      District of               1
                                                                  $1,462,103
 Health Based Requirements     Columbia                                             $2,924,403
 Increase Systems Meeting      Montana                   1
                                                                    799,990
 Health Based Requirements                                                           1,200,700
 Increase Systems Meeting      New Jersey                7
                                                                   9,334,769
 Health Based Requirements                                                          95,795,580
 Increase Systems Meeting      New York                  5
                                                                   9,154,134
 Health Based Requirements                                                          22,970,100
 Increase Systems Meeting      West Virginia             1
                                                                   1,052,629
 Health Based Requirements                                                           1,437,900
 Reduce Keypoint Source        District of               4
                                                                   8,974,954
 Loadings by 28%               Columbia                                             38,148,400
 Reduce Keypoint Source        Montana                   4
                                                                   7,168,067
 Loadings by 28%                                                                     8,949,500
 Reduce Keypoint Source        New Jersey                9
                                                                  16,678,492
 Loadings by 28%                                                                   223,240,480
 Reduce Keypoint Source        New York                  5
                                                                   3,143,831
 Loadings by 28%                                                                     5,465,300
 Reduce Keypoint Source        West Virginia             3
                                                                   8,513,913
 Loadings by 28%                                                                    11,164,727
 Wastewater Treatment          New York                  5
                                                                   7,993,456
 Construction                                                                       75,727,688
             TOTAL                                      45      $74,276,338       $487,024,778
Source: OIG analysis.


We developed questionnaires to use in contacting EPA project officers and recipient officials.
The objectives of our questionnaires were to determine the process for monitoring the assistance
agreements, the status of obligations under the assistance agreements, and the amounts that could
potentially be deobligated and applied to other environmental projects. We conducted interviews
with the grants management officers from the Grants Management Office, and EPA program
officials from the water programs in Regions 2, 3, and 8. We reviewed project files obtained
from EPA program officials. We also interviewed officials at Brooke County Public Service
District; Berkeley County Public Service Sewer District; West Virginia Division of
Environmental Protection; DC WASA; the U.S. Army Corps of Engineers; and other grantees in
Montana, New Jersey, and New York.




11-P-0170                                                                                         7
Prior Reviews

We researched prior EPA OIG and Government Accountability Office reports related to the
assistance agreements. We noted five pertinent EPA OIG reports, as listed in Table A-2.

Table A-2: Prior EPA OIG reports related to assistance agreements
    Report No.                                         Title                                        Date
 2007-2-00003           Information Concerning Superfund Cooperative Agreements with        October 30, 2006
                        New York and New Jersey
 08-2-0099              Followup on Information Concerning Superfund Cooperative            March 4, 2008
                        Agreements with New York and New Jersey
 2008-08-P-0265         EPA Should Continue Efforts to Reduce Unliquidated Obligations in   September 16, 2008
                        Brownfields Pilot Grants
 09-N-0150              EPA's Unliquidated Obligations for Grants                           May 1, 2009
 10-P-0081              EPA Needs Procedures to Address Delayed Earmark Projects            March 22, 2010
Source: OIG analysis.



Internal Control Structure

In planning and performing our audit, we reviewed management controls related to our audit
objectives. We examined EPA’s fiscal year 2009 Federal Managers’ Financial Integrity Act
Annual Assurance Letters issued by the regional administrators and assistant administrators for
the various EPA program offices to identify any weaknesses pertaining to the unliquidated
obligations under assistance agreements. In addition, we examined EPA’s Office of Management
and Budget Circular A-123 Appendix A reviews of internal controls to identify any weaknesses
related to unliquidated obligations under assistance agreements. EPA identified no material
weaknesses in its Circular A-123 reviews related to assistance agreements. We did not review
the internal controls over EPA’s Integrated Financial Management System, Financial Data
Warehouse, or ORBIT from which we obtained information, but relied on the review conducted
during the audit of EPA’s fiscal year 2009 financial statements.




11-P-0170                                                                                              8
                                                                                    Appendix B


                   Agency Response to Draft Report
             UNITED STATES ENVIRONMENTAL PROTECTION AGENCY

                                    REGION III 

                                1650 Arch Street 

                     Philadelphia, Pennsylvania 19103-2029 




                                       February 18, 2011

SUBJECT:	         Comments on Office of Inspector General Report
                  EPA Region 3 Reduced Unliquidated Obligations Under
                  Water Program Assistance Agreements
                  Assignment No. OA-FY10-0080

FROM: 	           James W. Newsom, Assistant Regional Administrator for
                  Office of Policy and Management, Region 3
                  /s/ John Armstead for James W. Newsom

TO: 	             Melissa Heist
                  Assistant Inspector General for Audits

        Recognition of the Region’s grants oversight and escalation process designed to prompt
action and reduce unliquidated and unobligated balances is very much appreciated. The Region
takes seriously its fiduciary responsibility to ensure timely and prudent use of funds made
available by Congress for award as grants.

        It is accurate as stated in the draft audit report, “EPA Region 3 Reduced Unliquidated
Obligations Under Water Program Assistance Agreements,” that the referenced District of
Columbia grant projects experienced construction disputes, nonperformance issues, technical
issues or equipment problems. For each of the projects in questions, a one (1) year performance
period was required to ensure that the projects function properly prior to grant close out. Due to
the referenced problems and the required performance review period, the Region was unable to
deobligate funds sooner than was actually accomplished. Specifically:

C-110027-34, District of Columbia Water and Sewer Authority
   	 This grant was awarded under authority of Clean Water Act Title II. Such grants have a
      one-year project performance period following completion of construction. After
      completion of the performance period, the recipient’s architect/engineer must certify that
      the project has been completed satisfactorily and operates as intended. As a result, there
      is at least a one-year gap between the last grant payment for construction activity and the


11-P-0170                                                                                            9
      final grant payment. The gap can be longer if technical issues are identified during the
      one-year performance period (e.g., operational and performance issues, warranty issues,
      or contractor disputes). This project had all three.
   	 Construction was completed and the performance period began in mid-2008. During the
      performance period (which ended in mid-2009) several equipment nonperformance
      issues were identified that required correction. The contractor also filed a construction
      claim and 12 Change Orders extended the construction project period.
   	 An additional year was required to resolve the nonperformance issues and the
      construction dispute. In March of 2010 the recipient certified operation and satisfactory
      performance. Also, in March 2010, the Corps of Engineers completed its oversight of the
      recipient’s final claim for grant payment. A final grant payment of over $0.5 million was
      approved on March 18, 2010. The unpaid grant balance of $265,304 was deobligated
      March 19, 2010.

C-110027-30, District of Columbia Water and Sewer Authority
    This was a very large and complex construction project involving a major upgrade and
      expansion of the sludge handling facilities at Blue Plains wastewater treatment plant, a
      370 million gallon per day facility. Although EPA grant funding is $22 million, the
      entire project is close to $90 million.
    Similar to the above, this grant was awarded under authority of Clean Water Act Title II.
      Such grants have a one-year project performance period following completion of
      construction. After completion of the performance period, the recipient’s
      architect/engineer must certify that the project has been completed satisfactorily and
      operates as intended. As a result there is at least a one-year gap between the last grant
      payment for construction activity and the final grant payment. The gap can be longer if
      technical issues are identified during the one-year performance period.
    Completion of project construction was delayed due to a series of technical issues, many
      of which were related to modifications of existing equipment. Hundreds of change orders
      were approved for work not anticipated at the beginning of the contract.
    Construction was completed and the Corps of Engineers conducted a final project
      inspection in September of 2008. During the performance period (which ended mid-
      2009), it was determined that additional work was needed to separate chemical drain lines
      from the acid and caustic stages to prevent a chemical reaction. This new work was
      essential for proper operation of the funded project. The new work extended the duration
      of the project.
    The grant was extended to the end of July 2010. The recipient requested a final grant
      payment in June 2010 and the grant was closed in July 2010

FS-99381601
    This was a safe drinking water grant awarded under authority of section 1452 of the Safe
      Drinking Water Act.
    The grant was $18 million. At an 80% federal share, the eligible cost was $22 million.
    The final inspection was conducted September 2007.



11-P-0170                                                                                   10
      There were two grant extensions due to punch list items needing completion and also one
       contract needing settlement.
      The first extension was to April 30, 2008 and the second to January 31, 2010.
      The Final Payment Recommendation was issued by the Corps of Engineers in February
       2010.
      The grant was decreased by $341,513.87 on April 6, 2010 and financially closed out.
      A closeout letter was issued June 9, 2010.

        Grant completion and fund deobligation was influenced entirely by successful completion
of the construction projects and demonstration that the facilities were functioning as intended.

        Finally, the “Results of Review” section of the draft report states that the deobligated
funds could have been available sooner for other environmental projects. It should be clarified
that deobligated funds are returned to DC WASA for additional projects.




11-P-0170                                                                                          11
                                                                            Appendix C


                                    Distribution
Office of the Administrator
Regional Administrator, Region 3
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Grants and Interagency Agreements Management Division,
       Office of Administration and Resources Management
Assistant Regional Administrator, Region 3
Director, Water Protection Division, Region 3
Audit Followup Coordinator, Region 3




11-P-0170                                                                            12
